                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 1-04100033
                                                                                     I           Page 1 of 1



        In July 2004, the Office of Inspector General initiated a proactive review of participant support
        funds allocated to NSF awards. Participant support costs are expended to or on the behalf of
        participants or trainees (but not employees) for stipends, subsistence, travel and registration fees
        for conferences, symposiums andlor workshops. To that end, OIG randomly selected this award1
        for review.

        Our office contacted the university for an explanation of the travel expenses used to support
        travel expensed for university employees2and the principal i n ~ e s t i ~ a t o rAlso,
                                                                                          s . ~ there was a
        group photo taken at the conference that was paid for with grant funds but did not appear to be
        budgeted in the documentation submitted by the university to the agency.

        The university was able to provide our office with documentation demonstrating that the program
        office at the agency was aware that some of the participant support funds would be used for the
        PI'S as well as other university employees. They also provide an acceptable explanation for the
        photo expenditure.

        After reviewing the supplemental documentation and explanation of expenditures, our office is
        satisfied that the university did not violate the participant support guidelines. ~ c c o r d i n ~'this
                                                                                                             l~,
        case is closed.




         ' footnote redacted
           footnote redacted
           footnote redacted




NSF OIG Form 2 (1 1/02)
